HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed
in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02662)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02662)
December 9, 2002
Complete Text of Report is available in PDF format
(537 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Regulations require that when multiple services are provided in the same operative
session, the highest paying procedure is reimbursable at the full payment rate
while the other procedures are reimbursable at one-half the normal payment rate.
Our review of the Noridian Mutual Insurance Companys (NMIC) systems showed
that NMIC failed to identify such instances, which resulted in provider overpayments
for calendar years 1999 through 2001 of approximately  $99,346, $81,447,
and  $142,758 ($323,551), respectively.  Included in the identified
overpayments is approximately $65,439 in beneficiary overpayments for coinsurance.
Most of the overpayments occurred because the carriers processing system did
not identify multiple procedures performed during the same session when submitted
on separate claims.